Audit Report



Return
    to the USDOJ/OIG Home Page




Antiterrorism and Emergency Assistance Program Grants Administered by the Colorado Division of Criminal Justice

Report No. GR-60-04-004


March 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Antiterrorism and Emergency Assistance Program Grants awarded by the U.S. Department of Justice, Office of Justice Programs (OJP) to the Colorado Division of Criminal Justice (CDCJ). The purpose of these grants was to provide compensation and services to victims attending the Oklahoma City bombing trial in Colorado, and victims of the Columbine High School tragedy.
We tested the CDCJ's accounting records to determine if reimbursements claimed for costs under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grants.
Our audit revealed that grant drawdowns exceeded immediate needs and required reports were not always accurate or submitted timely. Additionally, the CDCJ's monitoring of subgrantees was not adequate to ensure that costs charged to the grant were allowable, properly supported, and in compliance with grant conditions. Based on the deficiencies listed below, we questioned $204,101, or 10 percent, of the total grant funds awarded.1 Specifically we found:

Progress reports were not always submitted or submitted timely.


 The CDCJ received drawdowns of grant funds in excess of its immediate disbursement requirements.


FSRs (Financial Status Reports) were not always accurate or submitted timely.


Unallowable direct costs totaling $1,141 and unsupported costs of $29,996 were charged to the grants by subgrantees.


Subgrantee funds totaling $172,964 were commingled with other funding sources and the subgrantee was unable to illustrate how the commingled funds were allocated to expenditures. As a result, we questioned the entire $172,964 as unsupported.


The CDCJ did not adequately monitor subgrantee compliance with single audit requirements.

These items are discussed in detail in the Findings and Recommendations section of this report. Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1978 contains our reporting requirements for questioned costs. However, not all findings are dollar-related. See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs.